                             Department of the Interior
                            Office of Inspector General




              Audit Report


        U.S. Fish and Wildlife Service
          Federal Assistance Grants
             Administered by the
         Commonwealth of Kentucky,
  Department of Fish and Wildlife Resources,
   from July 1, 2002, Through June 30, 2004




Report No. R-GR-FWS-0013-2005         September 2006
                   United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191
                                                                             September 22, 2006

                                     AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Christina M. Bruner
            Director of External Audits

Subject:    Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Grants
            Administered by the Commonwealth of Kentucky, Department of Fish and Wildlife
            Resources, from July 1, 2002, Through June 30, 2004 (No. R-GR-FWS-0013-2005)

        This audit report presents the results of our audit of costs incurred by the Commonwealth
of Kentucky (Commonwealth), Department of Fish and Wildlife Resources (Department). The
Commonwealth incurred the costs under Federal Assistance grants administered by the U.S. Fish
and Wildlife Service (FWS). The audit included total reported outlays of approximately $39
million on FWS grants that were open during Commonwealth fiscal years (CFYs) ended June 30
of 2003 and 2004 (see appendix 1). The audit also evaluated Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned $66,408 in costs because the Department could not
provide supporting documentation for two selected expenditures. We also identified issues
pertaining to real property records and license revenues.

        We provided a draft of the report to FWS and the Department for response. We
summarized the Department’s responses after each recommendation, as well as our comments
on the responses. FWS concurred with the recommendations and stated the Department’s
proposals to implement the recommendations will be considered in the development of the
Corrective Action Plan. We listed the status of each recommendation in appendix 3.

        Please provide us with your written response to the findings and recommendations
included in this report by December 21, 2006. Your response should include information on
actions taken or planned, target completion dates, and titles of officials responsible for
implementation.

      If you have any questions regarding this report, please contact Mr. Tom Nadsady, Audit
Team Leader, at 916-212-416 or me at 703-487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                               Introduction

Background

The Pittman-Robertson Federal Aid in Wildlife Restoration Act and the Dingell-Johnson Federal
Aid in Sport Fish Restoration Act (Acts) 1 authorize FWS to provide Federal Assistance grants
to states to enhance their sport fish and wildlife restoration programs. The Acts allow FWS to
reimburse states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state fish and game agency.

Objectives

Our audit objectives were to determine whether the Department:

           •    claimed and incurred costs under Federal Assistance grants in accordance with the
                Acts and related regulations, FWS guidelines, and grant agreements;

           •    used state hunting and fishing license revenues solely for fish and wildlife program
                activities; and

           •    reported and used program income in accordance with federal regulations.

Scope

The audit work included claims totaling approximately $39 million on FWS grants that were
open during the CFYs 2003 and 2004 (see appendix 1). We performed our audit at Department
headquarters in Frankfort, Kentucky. We also visited four regional offices, eight wildlife
management areas, two boat ramps, one fish hatchery, and two shooting ranges (see appendix 2).
This audit was performed to supplement, not replace, the audits required by the Single Audit Act
of 1984, as amended, and the Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. We examined the evidence that supports
selected expenditures charged to the grants by the Department, interviewed Department
employees to ensure that personnel costs charged to the grants were supportable, and determined
whether the Department used hunting and fishing license revenues solely for sport fish and
wildlife program purposes. To the extent possible, we relied on the work of the

1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.


                                                          2
Commonwealth’s Auditor of Public Accounts to avoid duplication of effort. We did not evaluate
the economy, efficiency, or effectiveness of Department operations.

We selected a judgmental sample of transactions for substantive testing based on an initial
assessment of risk. We reviewed transactions and supporting documentation related to
purchases, other direct costs, drawdowns of reimbursements, in-kind contributions, program
income, equipment, and other property. We did not project the results of substantive tests to the
total population of recorded transactions. We also reviewed the financial management systems
for labor and license fees to identify the relevant internal controls over transactions recorded in
those systems and to test the operation and reliability of those controls.

Prior Audit Coverage

On March 4, 2003, we issued a Report titled, “Final Advisory Report on Costs Claimed by the
Commonwealth of Kentucky, Department of Fish and Wildlife Resources, Under Federal Aid
Grants from the U.S. Fish and Wildlife Service from July 1, 1996, through June 30, 1998,”
(2003-E-0020). The Department implemented seven of the eight report recommendations. The
remaining recommendation on assent legislation is still unimplemented, and we discuss it in the
Results of Audit section.

We reviewed the Auditor of Public Accounts Single Audit Reports for CFYs 2003 and 2004.
The Sport Fish Restoration and Wildlife Restoration Programs were not selected for testing in
the 2003 Single Audit but were selected for testing in the 2004 Single Audit. The Department
implemented two of the three report recommendations. The remaining recommendation also
relates to assent legislation and is discussed in the Results of Audit section.




                                                 3
                                    Results of Audit

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS; state hunting and fishing license revenues
were used solely for the Department’s fish and wildlife program activities; and program income
was reported and used in accordance with federal regulations.

We also identified the issues listed below that required attention by FWS, including $66,408 in
questioned costs. We discuss these issues in more detail and recommend corrective actions in
the findings and recommendations section.

       •   Questioned Costs: Lack of Documentation. The Department did not have
           supporting documentation for two selected grant expenditures that totaled $66,408.

       •   Insufficient Real Property Records. The Department did not have real property
           records sufficient to determine if it owns a 33-acre tract of land that was being logged
           by a party who claims ownership of the land.

       •   Noncompliance With the Acts. The Commonwealth General Assembly enacted
           legislation that potentially allows license revenues from its Game and Fish Fund to be
           diverted to its General Fund.

Findings and Recommendations
We address each finding in detail below.

A.     Questioned Costs: Lack of Documentation

       We reviewed 75 transactions that totaled $4.6 million and found the Department could
       not provide an original purchase order, invoice, or payment document for the purchase of
       a dump truck and a pick-up truck totaling $66,408. Since the grant is based on a 72/25
       cost share, the Federal portion questioned is $49,806. These purchases were charged to
       the Statewide Wildlife Management grant W-45-35.

       OMB Circular A-87, Attachment A, Section C.1. j, states that for costs to be allowable
       under federal awards, they must be adequately documented. Also, Section 1 of FAP 111-
       28-00, Manual of Policies and Procedures, Commonwealth Finance and Administration
       Cabinet, states “each agency shall maintain records necessary to support each purchasing
       transaction . . . An agency’s filing system shall be set up so that any transaction can be
       referenced easily and audited from the initial purchase request within the agency to
       completion and payment.”



                                                4
     Recommendation

     We recommend that FWS work with the Department to resolve the $66,408 in
     unsupported costs and require the Department to strengthen its internal controls to ensure
     compliance with Section 1 of FAP 111-28-00.

     Department Response

     The Department concurred. The Department agreed it did not have supporting
     documentation for the grant expenditures and proposed to FWS that overmatching costs
     be used to offset the expenditures. The Department acknowledged the cause of the
     finding to be a filing error due to staff turnover.

     FWS Response

     FWS concurred with the finding and recommendation.

     OIG Response

     We consider the recommendation resolved but not implemented, since FWS has not
     taken corrective action. FWS should address the finding and recommendation, and the
     specific actions taken or planned, in the corrective action plan.

B.   Insufficient Real Property Records

     The Department may have lost control of a 33-acre tract of land that it believes was
     purchased with Federal Assistance funds. In 1975, the Department acquired 4,056 acres
     of land in the Yellowbank Wildlife Management Area (WMA). In 2004, a private party
     purchased a 33-acre tract on or near the WMA and began a logging operation on the
     property. The operation was stopped at the request of the Department because of
     concerns over whether the land was part of the WMA.

     FWS Service Manual 522 FW 20, Loss of Control and Disposal of Real Property,
     describes the role of FWS and the states in identifying and remedying a loss of control of
     real property purchased with Federal Assistance funds. The manual states that when
     property passes from management control of the state fish and wildlife agency, control
     must be fully restored to that agency or the real property must be replaced using non-
     Federal Assistance funds. The manual also states that the replacement property must be
     of equal value at current market prices and have benefits equal to the original property
     and that license revenues cannot be used to replace the property. As discussed
     previously, FAP 111-28-00, Section 1, requires each agency to maintain records
     necessary to support each purchase.

     Department survey officials stated that the 33-acre tract of land in question was not
     included in the original land boundary survey or reflected in the plat filed for the acquired
     property because the land survey inadvertently excluded the tract. They also told us that


                                               5
     they believe the language in the deed for the described property indicates that the
     Department does, in fact, own the land. As of December 2005, the ownership of the land
     was not resolved, and the Department was negotiating with the logging operator.

     Recommendations

     We recommend that FWS require the Department to:

     1. immediately resolve ownership of the 33-acre tract of land and, if it is determined that
        the land was acquired with Federal Assistance funds, revise the deed and land
        boundary and resolve the issues regarding the control of the land with the logging
        operator and

     2. strengthen its internal controls to ensure compliance with Section 1 of
        FAP 111-28-00.

     Department Response

     The Department concurred. The Department proposed hiring an independent title
     attorney to determine the boundaries of the land, properly mark the boundary of the
     property, and litigate a solution to the illegal timber harvest. The Department
     acknowledged that any monetary settlement will be reported as program income.

     FWS Response

     FWS concurred with the finding and recommendations.

     OIG Response

     We consider the recommendations resolved but not implemented, since FWS has not
     taken corrective action. FWS should address the finding and recommendations, and the
     specific actions taken or planned, in the corrective action plan.

C.   Noncompliance With the Acts

     Although the Commonwealth’s assent legislation includes a provision that prevents the
     diversion of license revenues to non-fish and wildlife activities, the Commonwealth
     General Assembly enacted legislation that could override the assent legislation.
     Kentucky Revised Statute (KRS) 48.315 allows the General Assembly to transfer to the
     General Fund all or part of agency funds, special funds, or other funds established under
     provisions of several statutes, including KRS 150.150 and 235.330, which pertain to the
     Commonwealth Game and Fish Fund.

     Both Restoration Acts require that a state pass legislation that assents to their provisions
     before any grant monies can be apportioned to that state. They also require the state to
     pass laws for the conservation of fish and wildlife and to prohibit the diversion of hunting



                                              6
and fishing license fees paid by hunters and sport fishermen for any purpose other than
administration of the state’s fish and wildlife agency.

This issue was addressed in our March 2003 Report and the Commonwealth Single Audit
Report for CFY 2004. Specifically, the former recommended that FWS resolve the issue
regarding the Commonwealth’s assent legislation, while the latter recommended that the
Department consider asking the General Assembly to adopt the provisions of 50 CFR §
80.3-80.4 into state law. These provisions prohibit the diversion of license revenues to
non-fish and wildlife purposes.

At the time of our current audit, the Commonwealth General Assembly had not passed an
amendment to KRS 48.315 prohibiting the diversion of the Department’s license
revenues to the General Fund or other non-fish and wildlife purposes. As a result, license
revenues can potentially be used for non-fish and wildlife purposes, which would make
the Commonwealth ineligible to receive funds under the Acts.

Recommendation

We recommend that FWS require the Department to work with the General Assembly to
amend the language in KRS 48.315 to prohibit the diversion of license revenues to
non-fish and wildlife purposes.

Department Response

The Department concurred. The Department reported to FWS that KRS 48.315 has been
amended to eliminate both KRS 150.150 and 235.330, which allowed the transfer of fish
and game license revenues for general state purposes.

FWS Response

FWS concurred with the finding and recommendation.

OIG Response

We consider the recommendation resolved but not implemented, since FWS has not
taken corrective action. FWS should address the finding and recommendation, and the
specific actions taken or planned, in the corrective action plan.




                                        7
                                                          Appendix 1
                                                            Page 1 of 2

                 COMMONWEALTH OF KENTUCKY
           DEPARTMENT OF FISH AND WILDLIFE RESOURCES
            FINANCIAL SUMMARY OF REVIEW COVERAGE
               July 1, 2002, Through June 30, 2004

                              Reported    Questioned
Grant Number   Grant Amount   Outlays       Costs      Federal Share

F-1-50            $334,000    $297,489
F-1-51              300,000     347,326
F-1-52              360,000     327,060
F-40-25             420,000     305,760
F-40-26             534,000     446,862
F-40-27             458,000     423,637
F-49-16             596,501     469,869
F-49-17             901,659     685,508
F-49-18             859,014     501,308
F-50-25           3,400,000   3,195,125
F-50-26           3,700,000   3,770,618
F-50-27           3,800,000   3,520,836
F-61-13               8,500       8,500
F-61-14               8,500       8,514
F-65-10             227,863     265,802
F-65-11             231,442     308,482
F-65-12             232,000     220,738
F-71-1            1,864,180   1,853,681
F-71-3            2,854,081   2,836,483
F-71-4              276,000     238,501
F-75-1               21,333      24,164
FW-3-25             300,000     284,948
FW-3-26             270,000     162,646
FW-3-27             250,000     269,142
FW-6-5              250,000     251,962
FW-6-6              213,333     212,055
FW-6-7              213,333     170,167
W-7-6               800,000   1,212,308
W-7-7               800,000   1,237,786
W-7-8               830,776   1,156,512
W-45-33           3,271,000   3,653,634




                                 8
                                                             Appendix 1
                                                               Page 2 of 2

                  COMMONWEALTH OF KENTUCKY
            DEPARTMENT OF FISH AND WILDLIFE RESOURCES
             FINANCIAL SUMMARY OF REVIEW COVERAGE
                July 1, 2002, Through June 30, 2004

                                Reported     Questioned
 Grant Number   Grant Amount    Outlays        Costs      Federal Share

  W-45-34        $3,634,452     $3,987,512
  W-45-35         3,964,452      4,334,165     $66,408        $49,806
  W-46-5            390,000          6,480
  W-46-6             86,500         80,475
  W-46-7            208,000        238,954
  W-46-8            440,000        436,873
  W-46-9            136,600          2,900
  W-46-10           582,000        579,926
  W-46-11           260,000        225,762
  W-62-1             80,000         49,276
  W-62-2            110,000              0
  W-64-1            205,111        205,375
  W-65-1             71,000         74,091
TOTAL           $38,753,630    $38,889,213     $66,408        $49,806




                                    9
                                            Appendix 2

      COMMONWEALTH OF KENTUCKY
DEPARTMENT OF FISH AND WILDLIFE RESOURCES
              SITES VISITED

               Regional Offices
               Fisheries Offices
                  Northwest
                  Southeast

                Wildlife Offices
                 Green River
                  Northeast

       Wildlife Management Areas (WMA)
                  Beaver Creek
                   Fish Trap
                  Green River
                    Greyson
                     Lloyd
                   Mill Creek
                    Sloughs
                  Yellowbank

                  Boat Ramps
                Alexander Creek
            Green River Arrue Young

                   Hatchery
                  Minor Clark

               Shooting Ranges
            Higginson-Henry WMA
                 Lloyd WMA




                      10
                                                                             Appendix 3

                       COMMONWEALTH OF KENTUCKY
                DEPARTMENT OF FISH AND WILDLIFE RESOURCES
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


 Recommendation           Status                          Action Required

A. B1, B2, C       Finding Resolved but Provide a corrective action plan that identifies the
                   Recommendation(s) actions taken or planned to implement the
                   Not Implemented      recommendation, as well as the basis for any
                                        disagreement with the recommendation. The plan
                                        should also include the target date and the official
                                        responsible for implementation of the
                                        recommendation. If the recommendation is not
                                        implemented at the end of 90 days (after December
                                        21, 2006), it will be referred to the Assistant
                                        Secretary for Policy, Management and Budget for
                                        resolution and/or tracking of implementation.
